                                                        IG-00-047




AUDIT
                                 KENNEDY SPACE CENTER
REPORT                          PROPOSED MEDIA CENTER

                                   September 18, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

CFO             Chief Financial Officer
NPD             NASA Policy Directive
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
W                                                                                  September 18, 2000


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Kennedy Space Center Proposed Media Center
                  Report Number IG-00-047


The NASA Office of Inspector General has completed an audit of the proposed media center at the
Kennedy Space Center (Kennedy). We found that Kennedy does not have a documented
requirement or justification for the proposed media center. Additionally, preliminary plans to finance
media center construction costs with nonappropriated funds provided by the Kennedy Visitor
Complex Concessioner may be outside the scope of NASA's concessioner agreement. As presently
proposed, constructing the media center could result in the redirection of about $5 million from
Kennedy's Public Visitor Program to the Visitor Complex Concessioner over 10 years for
reimbursement of up-front construction costs and cost overruns.1

Background

Located within the boundaries of the NASA Press Site2 at Kennedy are 15 trailers owned by news
media organizations, which use the trailers during high-profile events such as Space Shuttle launches.3
The trailers are located on NASA-owned property leased4 to the news media organizations. As
part of an overall effort to beautify the Center, the Kennedy Center Director has indicated to the
media organizations that the land leases will not be renewed. The Kennedy Center Director asked
the Kennedy Visitor Complex Concessioner to investigate replacing the trailers with a permanent
structure funded with nonappropriated funds. Under this proposal, the Kennedy Visitor Complex
Concessioner will use corporate capital to fund the construction of a permanent facility and then will
operate and maintain the media center including leasing the space in the facility to interested media
organizations. NASA will

1
  NASA has recommended that cost overruns, if any, associated with constructing the media center, up to a
ceiling of $1 million, also be paid from nonappropriated funds provided by the Kennedy Visitor Complex
Concessioner.
2
  The NASA Press Site is located south of the Vehicle Assembly Building at Kennedy. The location
accommodates press agency trailers, buildings, the NASA Media Center, and a launch-viewing stand.
3
  In some instances, certain media organizations staff their trailers full time.
4
  NASA currently receives a total of $17,410 annually for trailer site leases from the 15 news media organizations.
                                                                                                      2

compensate the concessioner for the $3 million in up-front construction costs by modifying the award
fee portion of the current concessioner agreement. Title in the media center facility shall vest in the
Government.

Recommendations

We recommended that the Director, John F. Kennedy Space Center (1) develop a Functional
Requirements Statement and Requirements Document for the proposed media center project in
accordance with Agency requirements, (2) submit the media center project along with the proposed
method of financing to the NASA Headquarters Director of Facilities Engineering for review and
approval, and (3) document the justification for the predominant use of the proposed media center
before making a determination concerning use of nonappropriated funds for construction.

Management's Response

Management concurred with the finding and recommendations. Management agreed to develop a
Functional Requirements Statement and a Requirements Document. Additionally, management will
submit the project to NASA Headquarters for the appropriate review and approval. Prior to
proceeding with construction, the Contracting Officer will ensure that all the requirements of law,
regulation, and the Concession Agreement have been met; all applicable procedures have been
followed; and the basis for the use of nonappropriated funds is documented.

Details on the status of the recommendations are in the recommendations section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Kennedy Space Center Proposed Media Center
         FINAL REPORT
AUDIT OF KENNEDY SPACE CENTER
   PROPOSED MEDIA CENTER
W                                                                       September 18, 2000


TO:             AA/Director, John F. Kennedy Space Center
                J/Associate Administrator for Management Systems

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on Audit of Kennedy Space Center Proposed Media Center
                Assignment Number A0003300
                Report Number IG-00-047


The subject final report is provided for your information and use. Our evaluation of your response is
incorporated into the body of the report. The recommendations will remain open for reporting
purposes until corrective action is completed. Please notify us when action has been completed on
the recommendations, including the extent of testing performed to ensure corrective actions are
effective.

If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program Director,
Safety and Technology Audits, at (301) 286-0498, or Ms. Diane R. Choma,
Auditor-in-Charge, at (301) 286-6443. We appreciate the courtesies extended to the audit staff.
The final report distribution is in Appendix C.


[original signed by]
Russell A. Rau

Enclosure
                                                     2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
JX/Director, Facilities Engineering Division
M/Associate Administrator for Space Flight
                                 NASA Office of Inspector General
IG-00-047                                                                                       September 18, 2000
 A0003300

                       Kennedy Space Center Proposed Media Center

Introduction

The NASA Office of Inspector General (OIG) has completed an audit of the proposed media center
at the John F. Kennedy Space Center (Kennedy). The proposed media center will house several
news media organizations that are currently located in trailers at Kennedy. The Kennedy Visitor
Complex Concessioner is considering financing the up-front construction costs of the media center
with about $3 million in nonappropriated funds.

The overall objective of the audit was to evaluate the propriety of Kennedy's proposed plan to
construct a media center at the Center's current press site. The specific objective was to determine
whether the use of nonappropriated funds provided by the Kennedy Visitor Complex Concessioner
for constructing the media center is appropriate and to analyze concessions granted by NASA in
exchange for the use of those funds.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results in Brief

Kennedy does not have a documented requirement or justification for the proposed media center. In
addition, preliminary plans to finance media center construction costs of approximately $3 million
with nonappropriated funds provided by the current Kennedy Visitor Complex Concessioner may
be outside the scope of NASA's concessioner agreement. As presently proposed, constructing the
media center could result in the redirection of about $5 million from Kennedy's Public Visitor
Program to the Visitor Complex Concessioner over ten years for reimbursement of up-front
construction costs and cost overruns.

Background

The 15 trailers the news media organizations use at Kennedy are located on NASA-owned
property, which is leased5 to those organizations. The trailers are considered to be both an eyesore
and a potential safety hazard, and the Kennedy Center Director has indicated to the media
organizations that the land leases will not be renewed. The Kennedy Center Director has asked the
Kennedy Visitor Complex Concessioner to investigate replacing the trailers with a permanent
structure funded with nonappropriated funds. Under this proposal, the Kennedy Visitor Complex
5
    NASA currently receives a total of $17,410 annually for trailer site leases from the 15 news media organizations.
Concessioner will use corporate capital to fund the construction of a permanent facility. The
concessioner will operate and maintain the media center and will lease space in the facility to
interested media organizations. NASA will compensate the concessioner for the $3 million in up-
front construction costs by modifying the award fee portion of the current concessioner agreement.
Title in the media center facility shall vest in the Government.

NASA awarded concessioner agreement NAS10-12215 to Delaware North Parks Services of
Spaceport Inc. (Delaware North) in 1995 with a period of performance through 2005. The
agreement conveys to Delaware North the responsibility, under NASA's oversight, for management
and operation of the Kennedy Visitor Complex and for implementation of the Public Visitor
Program. NASA established the Public Visitor Program to help implement its statutory obligation to
communicate information about NASA programs and the results thereof by providing public access
to Kennedy, a broad range of information activities, and visitor services.

The annual budget process provides the means for the authorization and financing of facility projects
at NASA. This process includes reviews of NASA's annual budget request by Congress. Prior to
congressional action, NASA Headquarters officials perform a detailed review of individual Center
proposals for facility construction. Documents supporting a proposed facility construction project
must clearly and completely justify the need for the proposed project and identify the total estimated
cost of the project. Only those projects supported by the NASA Administrator are included in the
Agency's proposed budget.

The Director of NASA's Facilities Engineering Division is the Agency's functional leader and
technical authority for NASA facility matters, including master planning, facility requirements analysis
and planning, economic analysis of alternative solutions, design, construction, facilities budgeting
strategy, acquisition and leasing, maintenance, utilization, and disposal.

Construction of Proposed Media Center
Finding. Kennedy does not have a documented requirement or justification for the media center
project. In addition, preliminary plans for the proposed media center do not support the funding of
its construction with nonappropriated funds. This condition exists because Kennedy has not
adequately justified that the predominant purpose of the facility is for the enhancement of Kennedy's
Public Visitor Program. As a result, NASA may be redirecting about $5 million in nonappropriated
funds from Kennedy's Public Visitor Program to reimburse the Visitor's Complex Concessioner for
construction costs and cost overruns.

Guidance on Constructing Facilities

Section 203 of the National Aeronautics and Space Act of 1958 (Space Act), as amended, 1991,
states that NASA is authorized to use concessioners to fund construction, maintenance, and
operation in all manners of facilities and equipment for visitors to NASA installations and in
connection therewith, to provide services incidental to the dissemination of information concerning


                                                   2
the Agency's activities. The Space Act also states that NASA shall provide for the widest
practicable and appropriate dissemination of information concerning its activities and the results
thereof. NASA Public Affairs Officials informed us that they interpreted this portion of the Space
Act to include NASA's support of print and news media organizations in disseminating this
information.

NASA Procedures and Guidelines (NPG) 8820.2C, "Facility Project Implementation Handbook,"
dated April 28, 1999, provides detailed guidance on all aspects of a facility project from the initial
statement of the facility requirements to facility activation. NPG 8820.2C, Chapter 2,
"Requirements," states that requirements definition is the most important activity in the development
of a facility project. Clearly defined and documented requirements are necessary to develop a
realistic scope and budget estimate for the project. Requirements definition is a progressive process
that (1) begins with a determination that a mission, operation, or research and development task has
facility implications and that (2) leads to a comprehensive description of the required facility project.
The major activities in the requirements definition process include:

        •   Preparation of a Functional Requirements Statement by the project advocate establishing
            the necessity and general nature of a facility project.

        •   Preparation, review, and approval of a Requirements Document to fully define the
            functional characteristics of the desired facility. The Requirements Document is the
            primary input to the Preliminary Engineering Report, which is a key instrument for
            decision making.

        •   Preparation of the Preliminary Engineering Report. The Preliminary Engineering Report
            defines the scope and estimated cost of the needed facility. The Preliminary Engineering
            Report also evaluates the facility options, identifies the preferred options, and provides
            the effective link between the facility criteria and the final facility design.

NPG 8820.2C states that even when facility work at a field installation is financed by a
nonappropriated fund activity, the project must be processed in accordance with the delegation of
project approval authority contained in NASA Policy Directive (NPD) 7330.1F, "Approval
Authorities for Facility Projects," dated October 19, 1999. The NPD states that the NASA
Headquarters Director of Facilities Engineering is responsible for approving all facility projects
funded from other than NASA appropriations.

Concessioner Agreement

In accordance with the NASA Concessioner Agreement (NAS10-12215), Delaware North is
responsible for providing program support to accomplish the Public Visitor Program mission to tell
the NASA story. A fundamental objective of this responsibility is to explain how NASA's
aerospace programs and technology benefit people in their everyday lives. The concessioner shall
be responsible for telling the NASA story by conveying thorough, accurate, and current information


                                                    3
to the visiting public. As part of the agreement and in support of the Public Visitor Program,
Delaware North conducts guided tours of Kennedy and the Cape Canaveral Air Station to provide
an overview of the Center's operations and historical significance. The agreement also contains a
provision that the Government may request or direct the concessioner to provide new activities, as
the Government may consider desirable, for the accommodation and convenience of the public.
Facilities shall be designed and developed to communicate the NASA story to the visiting public and
to contribute to creating a positive visitor experience.

Requirements Document

Kennedy has not prepared appropriate requirements documentation for the proposed media center
at Kennedy. NPG 8820.2C requires the preparation of a requirements document as the primary
input for the Preliminary Engineering Report. The NPG also requires the preparation of a Functional
Requirements Statement to establish the need for the project. In place of a requirements document,
Kennedy contracted with an architect/engineering firm to provide a Preliminary Engineering Report
(dated November 10, 1999). The report states that its purpose is to delineate the requirements for
the NASA Press Site Upgrade at Kennedy. The requirements include providing the media center
building, moving the existing news media trailers to a temporary site, and removing the trailers once
the media center is opened for occupancy. The Preliminary Engineering Report establishes a three-
story, approximately 17,200 square foot building, with an estimated construction cost of about $3
million.

For the media center, NASA obtained the Preliminary Engineering Report without first defining an
Agency requirement for the center. Without a valid requirements document, the Agency has no
means of determining whether construction of a media center at Kennedy is a valid and justified
NASA requirement. Information obtained during the audit shows that the media center is clearly a
NASA requirement, and as such, should be supported by the Functional Requirements Statement
and the Requirements Document. Neither of these required documents have been prepared for this
project. Kennedy should complete the documentation as required by NPG 8820.2C even if the
Agency uses nonappropriated funds for construction. Further, regardless of how the proposed
facility is financed (appropriated or nonappropriated funds), the project must be reviewed and
approved by the NASA Headquarters Director of Facilities Engineering in accordance with NPD
7330.1F.

Proposed Project Financing

The current proposed method of financing the media center is questionable. Documentation
obtained during the audit shows that because of the decision not to renew the media organizations'
land leases, the Kennedy Center Director requested the Visitor Complex Concessioner, Delaware
North, to consider the creation of a combined media center/tour stop. The media center would be
located at the current Kennedy press site to facilitate and further the telling of the NASA story.
Proposed funding for this project is entirely contingent on the assumption that the media center
facility will be primarily a tour stop and, therefore, can be funded through concessioner agreement


                                                  4
funds or concessioner corporate capital. The current concessioner agreement allows wide latitude in
development and funding of projects as long as they are in accordance with the mission and
objectives of the Public Visitor Program.

In our opinion, construction of a media center is beyond the scope of the concessioner agreement
between Kennedy and Delaware North and would not be in accordance with the mission and
objectives of the Public Visitor Program. Although the concessioner agreement contains a broad
definition of the Public Visitor Program, the Space Act limits concessioner activities to those
involving visitors to the installations. Specifically, although the Space Act allows NASA to use
concessioners to fund construction of facilities, such facilities must be for visitors to NASA
installations and "in connection therewith, to provide services incidental to the dissemination of
information concerning the Agency's activities." The primary purpose of the media center, as
currently planned, is to provide permanent space for the news media organizations currently housed
in trailers at the Kennedy press site. Calling the proposed media center a tour stop does not make it
a visitors' facility and thus eligible to be funded by Delaware North as part of the Public Visitor
Program.

Kennedy officials involved with the project stated that the only way to have the media center funded
through the concessioner agreement with Delaware North was to classify the facility as a tour stop
and part of the Public Visitor Program. For example, in a message dated November 19, 1999, to
the Kennedy Center Director, the Kennedy Director of Procurement stated:

                If the media center is constructed with nonappropriated funds, the
                predominant purpose of the facility must be the enhancement of the Public
                Visitor Program. The facility could meet this requirement if it was a regular
                Kennedy tour stop (operated and maintained by Delaware North), and
                housed a museum of significant press artifacts associated with the space
                program.


In another message dated November 24, 1999, to the Kennedy Center Director, the Kennedy
Deputy Chief Financial Officer (CFO) for Finance stated that the key point is the purpose of the
building. The Deputy CFO for Finance stated:

                If the purpose of the building is a tour stop to enhance the visitor's
                appreciation of the activities of NASA, then nonappropriated funds from
                Delaware North should be used. If on the other hand, the building is a media
                center, then appropriated funds would be required to be used . . . We need to
                fully document the need for this particular tour stop, and the rationale for any
                concession enhancement provided to Delaware North, since many other
                parties will be reviewing the propriety of all actions taken by NASA in this
                transaction.


These messages clearly convey that the predominant use of the proposed media center facility must
be to enhance the Public Visitor Program. However, the limited NASA documentation prepared to
date does not support that the media center's primary purpose will be to support the Public Visitor
Program mission. For example, the Preliminary Engineering Report indicates space allocations in the


                                                       5
facility only for the media organizations that will become tenants. The report does not include any
tour facilities or accommodations and gives no indication that the building is intended for any purpose
other than office space for the news media. Kennedy should sufficiently document that the
predominant use of the proposed media center will be to enhance the Kennedy Public Visitor
Program before proceeding with using nonappropriated funds for construction.

Effect on the Public Visitor Program

Delaware North's financing of the media center's construction could also impact Kennedy's Public
Visitor Program by up to $5 million. Specifically, NASA will redirect approximately $4 million over
10 years from the Public Visitor Program's Service Improvement Account6 to the agreement's award
fee pool in order to reimburse Delaware North for about $3 million in anticipated up-front
construction costs. In addition, up to $1 million in construction overrun costs, if any, would be
funded from Kennedy Visitor Complex improvement funds.7 Kennedy management informed us that
the construction funding of $3 million necessary to build the media center will initially be provided
from Delaware North's working capital. Delaware North will also receive revenue in the form of fair
market value lease payments made by the media center's tenants once the facility is constructed and
operational.

In return for the up-front construction funding of $3 million, Delaware North will be reimbursed
about $4 million over 10 years through an increase in the award fee pool of the existing concessioner
agreement. The agreement currently specifies that Delaware North pays the first $50,000 of residual
revenue (income) to the U.S. Treasury. Then, the first $1 million (after the $50,000) of income is
divided on a 90/10 percent basis with 90 percent for the award fee pool and 10 percent for the
Service Improvement Account. The remaining income is currently divided on a 50/50 percent basis
between the award fee pool and the Service Improvement Account. In return for funding
construction of the media center, Kennedy has proposed that over a 10-year period, the second
$1 million in income (after the first $50,000 and $1 million) also be divided on a 90/10 percent basis
(90 percent for the award fee pool and 10 percent for the Service Improvement Account) similar to
the first $1 million. Changing the allocation of residual income in this way would result in an
additional $400,000 made available that would have previously funded the Service Improvement
Account. Over a 10-year period, this increase to the award fee pool would amount to about
$4 million redirected from the Service Improvement Account. The $4 million and the additional $1
million for funding overrun costs results in a redirection of up to $5 million from the various Public


6
  The Service Improvement Account provides for the acquisition of new or expanded capabilities in support of the
Public Visitor Program and the general improvement of the Kennedy Visitor Complex. The primary source of
funds in the account is derived from residual revenue (income), which is the portion of revenue remaining after all
Public Visitor Program expenses and obligations have been satisfied.
7
  Delaware North's concessioner agreement with Kennedy provides for the establishment of a Service
Improvement Account, Capital Improvement Account, and Theatre Improvement Account. These accounts are
to be used for the acquisition of Government property, or provision of related services, to improve, develop, and
expand the Kennedy Visitor Complex and the Public Visitor Program. The accounts are funded by residual
revenue and admission surcharges.


                                                        6
Visitor Program accounts. NASA management has not adequately considered whether this
redirection




                                             7
will affect the overall quality of the Kennedy visitor experience, and management has not determined
which proposed new exhibits would be eliminated or postponed due to the unavailability of funds.

NASA Management Actions

In a January 2000 prenegotiation document, Kennedy has taken the position that when a negotiated
agreement is reached between NASA and Delaware North on the media center, the project will be
put on hold until NASA management approval to proceed is issued or the issues identified by this
audit are resolved. Management's position along with implementation of this report's
recommendations should ensure that the media center project is (1) appropriately justified as being
predominately for the enhancement of the Public Visitor Program,
(2) approved in accordance with applicable Agency guidance for construction of facilities, and (3)
properly financed.

Recommendations, Management’s Response, and Evaluation of Response

The Director, John F. Kennedy Space Center, should:

1. Develop a Functional Requirements Statement and Requirements Document for the
proposed media center project in accordance with the requirements of NPG 8820.2C.

Management’s Response. Concur. Management is developing a Functional Requirements
Statement and a Requirements Document in compliance with NPG 8820.2C. The complete text of
management's response is in Appendix B.

Evaluation of Management’s Response. Management's planned actions are responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and open for
reporting purposes until corrective actions are completed.

2. Submit the media center project along with the proposed method of financing to the
NASA Headquarters Director of Facilities Engineering for review and approval in
accordance with the requirements of NPD 7330.1F.

Management’s Response. Concur. Management will prepare and submit a NASA Form 1509
to the NASA Headquarters Director of Facilities Engineering for review and approval in accordance
with the requirements in NPD 7330.1F (see Appendix B).

Evaluation of Management’s Response. Management's planned actions are responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and open for
reporting purposes until corrective actions are completed.




                                                 8
3. Document the justification for the predominant use of the proposed media center before
making a determination concerning use of nonappropriated funds for construction.
Management’s Response. Concur. The Contracting Officer will ensure that all the requirements
of law, the Space Act, and the Concession Agreement have been met before proceeding with the
project. The Contracting officer will also ensure that all applicable procedures have been followed,
and the basis for using nonappropriated funds for construction is documented (see Appendix B).

Evaluation of Management’s Response. Management's planned actions are responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and open for
reporting purposes until corrective actions are completed.




                                                 9
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to evaluate the propriety of Kennedy's proposed plan to
construct a media center at the Center's current press site. The specific objective was to determine
whether the use of nonappropriated funds provided by the Kennedy Visitor Complex Concessioner
for constructing the media center is appropriate and to analyze concessions granted by NASA in
exchange for the use of those funds.

Scope and Methodology

To accomplish our objectives, we obtained an overall understanding of Kennedy's plans for a new
media center and the proposed actions to accomplish those plans. In addition, we reviewed
applicable policies and procedures related to constructing facilities on NASA property. We also
reviewed the Kennedy Visitor Complex's Concessioner agreement with Delaware North to
determine whether it contains provisions for constructing facilities. We did not rely on any automated
data or information provided by NASA to complete our audit objectives. During the audit, we:

•   Obtained and reviewed the NASA Preliminary Engineering Report for the proposed media
    center.

•   Interviewed:

    - Personnel in the NASA Headquarters Facilities Engineering Division.
    - The President and Chief Operating Officer of Delaware North.
    - Kennedy's Chief of Operations Support and the Contracting Officer for the Delaware North
      Concessioner agreement.
    - The Kennedy Director of Procurement.
    - The Acting Director of Kennedy's Public Affairs Office.
    - The Kennedy Deputy Chief Counsel.
    - The Associate Director and staff of Kennedy's Facilities Operations Engineering Division.
    - The Kennedy Chief Financial Officer.


•   Obtained data from the Kennedy Information Officer who is responsible for coordinating
    logistics for the current press site.




                                                 10
Appendix A

Management Controls Reviewed

We reviewed the following management controls as part of the audit.

•   NASA Kennedy Concessioner Agreement (NAS10-12215) with Delaware North Parks
    Services of Spaceport, Inc.

•   NPD 7330.1F, "Approval Authority for Facility Projects," October 19. 1999.

•   NPG 8820.2C, "Facility Project Implementation Handbook," April 28, 1999.

•   National Aeronautics and Space Act of 1958, as amended.

Sufficient management controls are in place governing the construction of facilities using appropriated
funds. However, management controls with regard to using nonappropriated funds from a
concessioner to construct a facility on NASA property can be improved through management's
implementation of the report's recommendations.

Audit Field Work

We conducted field work from February through June 2000 at NASA Headquarters and Kennedy.
We performed the audit in accordance with generally accepted government auditing standards.




                                                  11
Appendix B. Management’s Response




               12
Appendix B




             13
     Appendix B




14
Appendix B




             15
     Appendix B




16
                             Appendix C. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
I/Associate Administrator for External Relations
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
JS/Director Security Management Office
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center
Chief Counsel, John F. Kennedy Space Center




                                               17
                                                                                        Appendix C

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,
 Office of Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space


Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                 18
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent with
our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Kennedy Space Center Proposed Media Center

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.


                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

         Excellent                  Fair
         Very Good                  Poor
         Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Kevin J. Carson, Program Director, Safety and Technology Audits

Diane R. Choma, Auditor-in-Charge

Iris Purcarey, Program Assistant

Nancy C. Cipolla, Report Process Manager
